HUGH B. ARNOLD
JOHN J. TOOMEY
DONALD D. SCHWARTZ
STEVEN F. MCDOWELL
PAUL M. EGAN

JAMES R. ANDERSON
ANDREW S. PIGOTT
BRIAN C. JAMES

LAw OFFICES

ARNOLD AND Kansan, LLP

36 EAST WACKER DRIVE TELEPHONE (312) 236-0415

SUITE 600 FAX (312) 341-0438
CHICAGO IIL EMAIL: arnoldandkadjanllp@aol.com
60601-2106

 

DANIEL N. KADJAN
RETIRED 1993

August 23, 2019

Mr. Scott S. Harris

Supreme Court of the United States
Office of the Clerk of Court
Washington, D.C. 20543-0001

Re:

No. 19-170
The E Company, et al. v. Trustees of the Suburban
Teamsters of Northern Illinois

Respondent's Request for Extension of Time

Dear Mr. Harris:

I am writing as Respondent's counsel pursuant to Supreme Court Rule 15 and 30.4 seeking a 21
day extension of time to September 25, 2019 to file a Brief in Opposition to The E Company's
Petition for Certiorari.

The Writ was docketed August 5, 2019. Respondent's original due date is September 4, 2019.

This extension is requested, as the press of other emergency matters has interfered with

preparation and final polishing of a product worthy of Supreme Court submission on the issues
of lack of a circuit split of authority on an established issue of withdrawal liability law that notice
to one control group member is notice to all.

A copy of this request is being served upon all other parties as required by Supreme Court Rule
29.

Respectfully submitted,

 
 
   

eS Gf a
Steven F. McDowell
Counsel for the Trustees of the
Suburban Teamsters of Northern Illinois
ce:

By email Royce4law@gmail.com
and Regular Mail

Merle L. Royce, II, Esq.

Law Office of Merle L. Royce
135 S. LaSalle Street, Suite 4000
Chicago, Illinois 60603
